National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                                 November 10, 2010


TO:               Bryan O’Connor
                  Chief of Safety and Mission Assurance

                  Michael Wetmore
                  Director, Safety and Mission Assurance, Kennedy Space Center


FROM:             Paul K. Martin
                  Inspector General


SUBJECT: Final Memorandum Assessing Launch Services Program’s Interim Response
         Team Training Requirements (Report No. IG-11-003; Assignment
         No. A-09-011-01)


During our audit of NASA’s Launch Services Program (Assignment A-09-011-00), the
Office of Inspector General received an allegation that Launch Services personnel were
not properly trained to investigate launch vehicle mishaps.

The Kennedy Space Center’s Safety and Mission Assurance Directorate is responsible for
defining the roles and responsibilities associated with mishap preparedness and
contingency plans (mishap plans) for the Launch Services Program. Mishap plans, which
are prepared at the Headquarters, Center, program, and project levels, describe the
procedures to report, investigate, and record mishaps and close calls, to include those that
occur during launch emergencies. 1 The response team is considered “interim” because it
operates on a short-term basis and concludes its mishap-response activities when the
official NASA-appointed investigating authority arrives at the scene and takes control.
Although launch emergencies and mishaps at Kennedy are rare, team members must be
properly trained to support the initial phases of a mishap investigation. 2


1
    NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
    NASA categorizes mishaps based on the severity of injury to personnel or total cost of damage to
    property. Mishap classifications range from a Type A mishap, the most severe, to a close call, the least
    severe.
2
    The Launch Services Program’s Interim Response Team was activated in April 2005 when the
    Demonstration of Autonomous Rendezvous Technology spacecraft collided with the intended rendezvous
    satellite and again in February 2009 when the Orbiting Carbon Observatory crashed into the ocean
    following a launch failure.
                                                                                                   2



To assess the allegation about a lack of adequate training for response team members, we
reviewed training requirements for the Kennedy Interim Response Team in the relevant
mishap plans (Science Mission Directorate, Exploration Systems Mission Directorate,
Kennedy Space Center, and Launch Services Program). See Enclosure 1 for details on
the review’s scope and methodology.

Executive Summary

While the mishap plans we reviewed appropriately identified roles and responsibilities for
managing contingency actions, NASA has not established training requirements for
Interim Response Team members. 3 In addition, we found that training requirements for
Interim Response Team members in the Launch Services Program’s mishap plan were
inconsistent with mishap plans developed by Kennedy Space Center, the Science Mission
Directorate, and the Exploration Systems Mission Directorate. We also determined that
none of the 16 safety and mission assurance personnel assigned as Kennedy Interim
Response Team members during the Orbiting Carbon Observatory (OCO) and Lunar
Reconnaissance Orbiter/Lunar Crater Observation and Sensing Satellite (LRO/LCROSS)
launch missions had completed all of the required training included in the mission-
specific mishap plans, and only 3 of the 16 had completed the “Introduction to Mishap
Investigations” training course required by the Kennedy Mishap Plan. Consequently, we
question whether personnel assigned as Interim Response Team members were
sufficiently knowledgeable about the NASA mishap investigation process to effectively
execute the assigned roles and responsibilities of the Interim Response Team in the event
of a mishap or close call.

We provided a draft of this memorandum to the Agency on September 29, 2010,
recommending that NASA’s Chief of Safety and Mission Assurance develop minimum
requirements for personnel assigned to Interim Response Teams and update
NPR 8621.1B to reflect these requirements, and that the Director of Kennedy’s Safety and
Mission Assurance Directorate develop procedures to ensure that assigned personnel
complete the required training.

The Chief of Safety and Mission Assurance concurred with our recommendations and
stated that the Office of Safety and Mission Assurance (OSMA) will update the NPR to
to include general training requirements for safety and mission assurance personnel
assigned to Interim Response Teams as well as a requirement that Mishap and
Contingency Plans specify additional training requirements appropriate to the hazards and
tasks associated with a particular Center or program. The Chief also concurred with our
recommendation that the Director of Kennedy’s Safety and Mission Assurance
Directorate develop procedures to ensure that personnel assigned to Interim Response
Teams complete the required training. The Chief stated once NPR 8621.1 is updated, the

3
    NASA Procedural Requirements (NPR) 8621.1B, “Mishap and Close Call Reporting, Investing, and
    Recordkeeping,” May 23, 2006.
                                                                                            3



Kennedy Safety and Mission Assurance Directorate will ensure that its process includes
the updated applicable training requirements. The full text of NASA’s comments is
reprinted in Enclosure 2.

We consider the Chief’s proposed actions to be responsive to our recommendations.
Therefore, the recommendations are resolved and will be closed upon verification that
management has completed the corrective actions.

Background

NASA Mishap Plans. NASA’s Chief of Safety and Mission Assurance is responsible for
developing and updating NASA’s principal regulatory guidance, NPR 8621.1B, to ensure
the proper reporting, investigating, and recordkeeping for all NASA mishaps and close
calls. The NPR defines NASA’s mishap reporting and investigative processes and
requires that OSMA provide mishap investigation training and identify mishap
investigation tools. The NPR also provides detailed requirements on how to respond to
any close call, from discovery through corrective action and closure; establishes
investigation authorities; formalizes notification, analysis, and reporting obligations; and
describes organizational responsibilities for developing mishap plans at the Headquarters,
Mission Directorate, Center, program, and project levels. These mishap plans
supplement NPR 8621.1B and identify appropriate roles and management responsibilities
for local mishap and close call notification, reporting, investigating, recording, and
prevention policies and procedures. NPR 8621.1B also identifies mandatory
requirements for each supplementary mishap plan and describes how the plans are to be
consistent with each other and cover any special organizational procedures.

Mishap Preparedness and Contingency Plans. NPR 8621.1B establishes specific
requirements to ensure proper reporting, investigating, and recordkeeping for mishaps and
close calls. The NPR directs Center Directors to develop a mishap plan to include
procedures to report, investigate, and record mishaps and close calls under the Center’s
responsibility and describe when the Center’s mishap plan is superseded by another
NASA mishap plan.

The Kennedy Safety and Mission Assurance Directorate is the focal point for planning
and executing Center and Program safety and mission assurance activities at Kennedy,
including coordination with OSMA at NASA Headquarters, other Centers, and other
Government agencies. The Kennedy Safety and Mission Assurance Directorate is
responsible for defining the roles and responsibilities associated with Kennedy’s and the
Launch Services Program’s mishap plans, as well as the specific requirements and
procedures for reporting, responding to, and investigating mishaps.

The “Kennedy Space Center Mishap Preparedness and Contingency Plan”
(KSC-PLN-2807, March 27, 2008) contains all the requirements established by
NPR 8621.1B. Each organization identified as having a participatory role in reporting,
responding to, and investigating mishaps is required to develop procedures to supplement
                                                                                           4



the plan. The Kennedy Space Center Director is the approving authority for the Kennedy
mishap plan.

“Launch Services Program Mishap Preparedness and Contingency Plan”
(LSP-PLN-365.01, August 22, 2006) defines the program requirements, roles, and
responsibilities for launch contingencies resulting in a mishap, mission failure, or close
call. The Launch Services Program’s mishap plan is in effect from the start of the launch
vehicle “Countdown Call to Stations” and ends after verification of successful separation
of the spacecraft from the launch vehicle and the reopening of the launch pad for normal
operations. The Launch Services Program’s mishap plan fulfills the NPR 8621.1B
requirement for a contingency plan for launch-related mishaps and close calls.

Mission-specific mishap plans also describe how NASA programs and Centers work
together to respond to and investigate NASA incidents, record results, and institute
actions to prevent the recurrence of mishaps. The mission-specific mishap plans
developed by the Science Mission and the Exploration Systems Mission Directorates that
we reviewed for two NASA missions – OCO, LRO/LCROSS missions – provided for
mission-unique requirements and complied with the Launch Services Program and Center
mishap plans.

Interim Response Team. The Director of Kennedy’s Safety and Mission Assurance
Directorate activates the Interim Response Team when a launch vehicle suffers a mishap
or close call. The team consists of representatives from Kennedy’s Safety and Mission
Assurance Directorate, the Launch Services Program Office, or both. The team serves
until the official NASA-appointed investigating authority arrives at the scene to
investigate the mishap or close call. Team members mainly review launch data integrity
and accountability, identify and collect witness statements, and coordinate mishap
activities among NASA, the Air Force, and contractors for the mishap launch vehicle.

Prior to the appointment of a formal investigating authority, Interim Response Team
members’ duties include assisting the NASA Launch Services Program officials to:

    •   prevent further injury to personnel or damage to property and safeguard
        appropriate records, data, property, and equipment; and

    •   ensure information flows to command post or emergency operations center and
        document the mishap scene using photography, video, sketches, and debris
        mapping, as applicable.

Upon arrival of the formal investigating authority, Interim Response Team members may
also support the mishap investigation by collecting preflight, flight, and post-flight data,
performing analysis to determine the probable cause of mission failure, and coordinating
investigative actions with governmental and contractor organizations.
                                                                                       5



Interim Response Team Training Requirements are Inconsistent

We found that NPR 8621.1B describes specific training requirements for mishap
investigators and specifies minimum training qualifications for the Investigating
Authority members and advisors upon their assignment to a mishap investigation;
however, the NPR does not specify training requirements for Interim Response Team
members.

However, the Kennedy Center Mishap Plan directed Interim Response Team members to
complete three training courses available through the online System for Administration,
Training, and Educational Resources for NASA (SATERN): “Introduction to Mishap
Investigations,” “NASA Mishap Investigation” (a Kennedy-developed course), and
“NASA Root Cause Analysis.” The Launch Services Mishap Plan did not specify any
training requirements for Team members, but did describe team roles and responsibilities.
NPR 8621.1B directs NASA programs to establish training requirements for NASA
employees appointed to serve as Interim Response Team members, but again does not
identify specific training requirements. However, OSMA and NASA Engineering and
Safety Center personnel we interviewed said at least one member of an Interim Response
Team should be required to complete SATERN’s “Introduction to Mishap Investigations”
and be familiar with NASA’s mishap investigation policies and procedures.

We reviewed the OCO and LRO/LCROSS mishap plans to identify what specific training
was required for personnel assigned to the missions’ Interim Response Teams. These
mission-specific mishap plans required “Introduction to Mishap Investigations” training
for all team members and six other specific training requirements not included in the
Kennedy or Launch Services Program mishap plans.

The training requirements in the mission-specific plans were as follows:

    •   SATERN’s “Introduction to Mishap Investigations”;

    •   Blood Borne Pathogens;

    •   National Incident Management System Online Training;

    •   NASA Interim Response Team Video;

    •   NASA-sanctioned Witness Interviewing training;

    •   NASA-sanctioned Chain of Custody training; and

    •   NASA-sanctioned Evidence Collection training.

Safety and Mission Assurance training records for team members assigned to the three
missions showed that only 3 of 16 members (19 percent) had completed any mishap
investigation training within the last 3 years and no members had completed the Root
                                                                                             6



Cause Analysis training listed in the Kennedy Mishap Plan. As a result, we question
whether personnel assigned as Interim Response Team members are sufficiently
knowledgeable about the NASA mishap investigation process, a situation that could
result in their inability to effectively execute team-assigned roles and responsibilities.

Mission Program Executives we interviewed said they expected Centers to assign team
members who had the requisite mishap investigation training in addition to any mission-
specific expertise. However, Launch Services Program personnel at Kennedy said that
the investigation training in the Kennedy mishap plan was unnecessary because team
members only collect mission data, evidence, and witness statements and therefore they
eliminated these training requirements from the Launch Services Program’s mishap plan.
Because NPR 8621.1B did not address standard training requirements for Interim
Response Team members, the Center, Launch Services Program, and mission-specific
mishap plans had inconsistent training requirements that resulted in a lack of properly
trained personnel assigned to the Interim Response Teams for the two NASA missions in
our review.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 1. We recommended that the Chief of Safety and Mission Assurance
develop standard mishap training requirements for safety and mission assurance
personnel assigned to Interim Response Teams.

   Management Response. The Chief concurred with developing standard mishap
   training requirements for Interim Response Team members and stated that the action
   will be completed by September 1, 2011.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2. We recommended that the Chief of Safety and Mission Assurance
update NPR 8621.1B, “NASA Procedural Requirements for Mishaps and Close Call
Reporting, Investigating, and Recordkeeping,” to include the training requirements for
personnel assigned to Interim Response Teams. The training should be specific to the
role of the team member and include refresher-training requirements for each course.

   Management Response. The Chief partially concurred with our recommendation,
   stating that NPR 8621.1B will be updated to specifically include (a) general training
   requirements for personal assigned to Interim Response Teams, and (b) a requirement
   that Mishap Preparedness and Contingency Plans specify additional training
   requirements appropriate to the hazards and tasks associated with a particular Center
   or program. Action is to be completed by September 1, 2011.
                                                                                           7



   Evaluation of Management’s Response. Management’s proposed actions to revise
   NPR 8621.1B are responsive. The recommendation will be closed upon completion
   and verification of management’s corrective action.

Recommendation 3. Upon establishment of the above recommended training
requirements for Interim Response Teams, we recommended that the Director of
Kennedy’s Safety and Mission Assurance Directorate develop procedures to ensure that
personnel have the requisite training prior to being assigned to Interim Response Teams.

   Management Response. The Chief of Safety and Mission Assurance concurred,
   stating that upon updating NPR 8621.1B with identified Interim Response Team
   training, the Director of Kennedy’s Safety and Mission Assurance Directorate will
   ensure that Kennedy’s existing process is updated to include those courses that are
   applicable to Kennedy Interim Response Teams. Action is to be completed by
   September 1, 2011.

   Evaluation of Management’s Response. Management’s proposed action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

   We appreciate the courtesies extended during our review. If you have any questions
   or need additional information, please contact Raymond Tolomeo, Science and
   Aeronautics Research Director, Office of Audits, at 202-358-7227.


2 Enclosures
                              Scope and Methodology
During an audit of NASA’s Launch Services Program that examined whether NASA’s
Launch Services Program acquired expendable launch vehicles cost effectively and
timely, the Office of Inspector General received an allegation that Launch Services
Program Interim Response Team members at Kennedy Space Center were not properly
trained to investigate launch vehicle mishaps. In response to this allegation, we
performed a review from March 2009 through September 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the review to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on the objectives. We believe that the
evidence obtained during this review provides a reasonable basis for our findings and
conclusions based on our objectives. Work performed for this review included:

    •   Reviewing and analyzing mishap guidance and plans prepared by the OSMA,
        Science Mission Directorate, Exploration Systems Mission Directorate, Launch
        Services Program, and Kennedy Space Center.

    •   Reviewing organizational roles and responsibilities for Interim Response Team
        members, NASA training requirements for Interim Response Team members,
        and NASA training requirements for its mishap investigation teams.

    •   Interviewing safety and mission assurance personnel at OSMA, NASA
        Engineering and Safety Center, and Kennedy.

    •   Interviewing Kennedy Flight Projects Office managers of the Launch Services
        Program.

    •   Interviewing Program Executives for the OCO and LRO/LCROSS launch
        missions.

    •   Attending the LRO/LCROSS Flight Readiness Review on June 10, 2009.

Computer-Processed Data. We did not use computer-processed data to examine the
allegation that Launch Services Program’s Interim Response Team members at Kennedy
Space Center were not properly trained to investigate launch vehicle mishaps.

Review of Internal Controls. We reviewed and evaluated internal controls associated
with the allegation and found deficiencies as described in the report. Implementation of
the recommendations should improve the internal controls and prevent future recurrence.

Prior Coverage. During the last 5 years, there has been no audit coverage by the OIG of
this particular issue.




                                                                              Enclosure 1
                                                                              Page 1 of 1
Management’s Comments

                                         Final
                                       Reference




                                      Revised




                                      Revised




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
